United States v. Miller, 806 Fed.Appx. 963 (2020)

806 Fed.Appx. 963 (Mem)
This case was not selected for publication in West’s Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally governing citation of judicial
decisions issued on or after Jan. 1, 2007. See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Chazdin MILLER, Defendant-Appellant.
No. 20-10272
|
Non-Argument Calendar
|
(May 21, 2020)
Attorneys and Law Firms
Christopher P. Canova, Robert G. Davies, U.S. Attorney Service - Northern District of Florida,
U.S. Attorney’s Office, Pensacola, FL, for Plaintiff-Appellee
Joseph F. DeBelder, Randolph Patterson Murrell, Richard Michael Summa, Federal Public
Defender’s Office, Tallahassee, FL, for Defendant-Appellant
Appeal from the United States District Court for the Middle District of Florida, D.C. Docket No.
4:19-cr-00074-AW-CAS-1
Before MARTIN, GRANT, and LUCK, Circuit Judges.
Opinion
PER CURIAM:
Chazdin Miller pled guilty to one count of possession of a firearm by a convicted felon in
violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2). The district court found that Miller had
two previous felony convictions of either a “crime of violence” or a “controlled substance
offense” and, based on that finding, increased his base offense level from 20 to 24. See USSG
§ 2K2.1(a)(2). Miller objected to this increase. He argued that his conviction for sale of a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Miller, 806 Fed.Appx. 963 (2020)

hallucinogen within 1000 feet of a school in violation of
Section 893.13 of the Florida
Statutes is not a “controlled substance offense.” He asserted that this offense, *964 which
contains no mens rea element as to the illicit nature of the substance, is broader than the generic
equivalent. The district court overruled this objection as barred by United States v. Smith,
775 F.3d 1262 (11th Cir. 2014), in which this Court held that Section 893.13—despite its lack of
a mens rea element—is a “controlled substance offense” under the sentencing guidelines. Id.
at 1268. After overruling Miller’s objection, the court sentenced him to 84 months in prison.
At the time the district court sentenced Miller, a case was pending before the Supreme Court
that had the potential to overrule Smith. The Supreme Court has since decided that case,
Shular v. United States, 589 U.S. ––––, 140 S. Ct. 779, 206 L.Ed.2d 81 (2020). In Shular,
the Court held that the Armed Career Criminal Act’s “serious drug offense” definition “does not
require that the state offense match certain generic offenses.” Id. at 782. Instead, the “serious
drug offense” definition applies if the defendant was convicted of a state offense involving “the
conduct specified in the federal statute.” Id. (emphasis added); see id. at 787.
Even though the Supreme Court’s ruling in Shular appears to endorse this Court’s approach
in
Smith,1 Miller makes two arguments for why his objection is still valid. First, in his
opening brief, Miller argued the Supreme Court could still grant certiorari to decide whether
Shular—which concerned the Armed Career Criminal Act—should be extended to the
sentencing guidelines. Since then, however, the Supreme Court denied certiorari in the case to
which Miller’s brief referred. See Bishop v. United States, ––– U.S. ––––, 140 S. Ct. 1274, 206
L.Ed.2d 259 (2020). That case was an appeal from a decision of this Court reaffirming that “a
conviction under [ Section] 893.13(1)(a) is a ‘controlled substance offense’ under the
United States v. Bishop, 940 F.3d 1242, 1253–54 (11th Cir. 2019) (citing
Guidelines.”
Smith, 775 F.3d at 1267). While we do not doubt that the Supreme Court could at some future
point address whether the rule in Shular applies to cases under the sentencing guidelines, it
has not yet chosen to do so. Thus, Miller’s argument falls short.
Second, Miller argues that even if Shular would not require a different outcome in Smith,
the Supreme Court overruled the conduct-based test this Court applied in that opinion. The
Armed Career Criminal Act defines “serious drug offense” as “an offense under State law,
involving manufacturing, distributing, or possessing with intent to manufacture or distribute, a
controlled substance.”
18 U.S.C. § 924(e)(2)(A)(ii) (emphasis added). The sentencing
guidelines define “controlled substance offense” as “an offense under federal or state law ... that
prohibits the manufacture, import, export, distribution, or dispensing of a controlled substance.”
USSG § 4B1.2(b). Miller says this distinction in language matters because of Shular’s
focus on the Armed Career Criminal Act’s use of the word “involving,” which the Supreme
Court said shows Congress intended to “describe conduct rather than offenses.” Shular, 140
S. Ct. at 786. But
Shular did not hold that an offense-based approach is required for
analogous provisions *965 that lack the word “involving,” such as the sentencing guidelines’
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Miller, 806 Fed.Appx. 963 (2020)

definition of “controlled substance offense.” See id. Until the Supreme Court or our Court
sitting en banc sets forth such a rule, Smith and its progeny remain binding precedent.
AFFIRMED.
All Citations
806 Fed.Appx. 963 (Mem)

Footnotes

1

Indeed, Shular affirmed a decision of this Court applying Smith. See United States
v. Shular, 736 F. App’x 876, 877 (11th Cir. 2018) (per curiam) (unpublished) (“The
appellant does not make any arguments in his initial brief, apart from those alleging that
our decision in Smith is incorrect. We may not deviate from Smith’s holding, so we
affirm.” (citations and footnote omitted)). In addition, Shular, Smith, and Miller’s
case all concern convictions under the same state law: Section 893.13. See Shular,
140 S. Ct. at 784; Smith, 775 F.3d at 1268.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

